OIG Investigative Reports, Ex-Gary Couple Indicted in $400,000 Social Security Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Chicago, IL July 30, 2001
Press Contacts::
SAUSA Michael Messer (312) 353-5330
AUSA/PIO Randall Sarnborn (312) 353-5318
Ex-Gary Couple Indicted in $400,000 Social Security Fraud Scheme
Chicago - A former Gary, Ind., couple living in Minnesota has been indicted on federal charges for allegedly fraudulently obtaining $400,000 in Social Security disability and other benefits. The woman also obtained an additional $19,600 in government education funds that she was not entitled to receive. A nine-count federal grand jury indictment was unsealed following the arrest in Minnesota of Maria E. Magana-Bonnet, who was indicted along with her husband, Vernon E. Bonnet, announced Scott R. Lassar, United States Attorney for the Northern District of Illinois.
Magana-Bonnet, 49, of Minneapolis, appeared before a federal magistrate judge on Friday and was ordered detained after being arrested in Minneapolis. Both she and Bonner, 51, who is also living in Minnesota, will be ordered to appear for arraignment in U.S. District Court in Chicago. They were indicted on July 25 and were each charged with four counts of wire fraud and two counts of stealing government funds. Magana-Bonner was also charged with one count of mail fraud and one count of education fraud.
According to the indictment, since 1984 the couple defrauded the Social Security Administration of approximately $400,000 by claiming to be disabled when, in fact, they were not. They allegedly feigned and exaggerated symptoms of mental and physical illness and disease, causing doctors to conclude that they were unable to perform substantial gainful activity as a result of purported mental and physical problems. In addition to causing false medical records and opinions, they made numerous false statements to SSA in applications for disability benefits and other proceedings by falsely claiming to suffer from severe illnesses and impairments that prevented them from engaging in such activities as driving, caring for themselves and performing household chores.
The couple also allegedly applied for and received social security benefits for two fictitious minor dependent children, Diego Magana and Virginia Bonner, each of whom was purportedly born to one of the defendants in a foreign country. Magana-Bonner allegedly used an alias social security number to obtain a driver's license, to apply for financial aid and to obtain a job while attending school at Chicago State University. She used the false social security number to conceal from SSA that she was not disabled as she had claimed, the indictment alleges.
It further alleges that Magana-Bonner defrauded Chicago State, and the U.S. Department of Education of approximately $19,600 between 1993 and 1997 by fraudulently obtaining Pell education grants and other forms of financial assistance to which she was not entitled. She allegedly made false statements about her individual and household income and failed to disclose any of the social security benefits that she received, as well as the benefits received by her husband and two fictitious children.
Mr. Lassar announced the charges with Kathleen McChesney, Special Agent-in-Charge of the Chicago Field Division of the Federal Bureau of Investigation; William Corter, Special Agent-in-Charge of the Social Security Administration's Office of Inspector General; Christopher J. Fox, Special Agent-in-Charge of the Midwest Regional Office of the Department of Education's Office of Inspector General; and the Department of Veterans Affairs' Office of Inspector General. Anyone with information about suspected social security or education fraud is encouraged to call the agencies' respective toll-free fraud hotlines:Social Security: 1-800-269-0271Education: 1-800-647-8733
The government is being represented by Assistant U.S. Attorney Anthony Masciopinto and
Special Assistant U.S Attorney Michael Messer.
If convicted, each count of stealing government funds carries a maximum penalty of 10 years in prison and a $250,000 fine, while each other court in the indictment carries a maximum of five years in prison and a $250,000 fine. As an alternative fine, the Court may impose a maximum of twice the gross gain to any defendant or twice the gross loss to any victim, whichever is greater. Restitution is mandatory. The Court, however would determine the appropriate sentence to be imposed under the United States Sentencing Guidelines.
The public is reminded that an indictment contains only charges and is not evidence of guilt. The defendants are presumed innocent and are entitled to a fair trial at which the United States has the burden of proving guilt beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov